CREDIT LINE ACCOUNT
AGREEMENT AND DISCLOSURE

P.O. Box 270010
Littleton, CO 80127
303-978-2274 or 800-828-2274 THIS IS YOUR CREDIT LINE ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL

TRUTH-IN-LENDING DISCLOSURE STATEMENTS, VISA CLASSIC AND VISA SECURED AGREEMENTS,
AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR VISA CLASSIC AND VISA
SECURED CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO
READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

10.95

VISA Classic: ___________% creditworthiness.

10.95

VISA Secured: ____________% creditworthiness.

21.00
____________%
21.00
____________%

based on Your

based on Your

Annual Percentage Rate
(APR) For Balance
Transfers

10.95
21.00
VISA Classic: ____________%
- ____________%
based on Your creditworthiness.

Annual Percentage Rate
(APR) For Cash Advances

10.95
VISA Classic: ____________%
- 21.00
____________% based on Your creditworthiness.

10.95
21.00
VISA Secured: ____________%
- ____________%
based on Your creditworthiness.
10.95
21.00
VISA Secured: ____________%
- ____________%
based on Your creditworthiness.

11.99
Signature Loan: ____________%
- 21.00
____________% based on Your creditworthiness.
14.99
21.00
Ready Credit Line of Credit: ____________%
- ____________%
based on Your
creditworthiness.
3.00+div rate - ____________%
3.00+div rate based on Your creditworthiness.
Share Secured: ____________%

3.00+CD rate when You open Your account, after which Your APR
Certificate Secured: ____________%
will vary with the dividend rate paid on the shares pledged as Collateral.
Personal Property Secured: 1.99
____________% - 17.99
____________% based on
creditworthiness, length of repayment, age and type of collateral pledged as security.

Your

Paying Interest

For VISA, We will not charge You interest on purchases if You pay Your entire balance owed
each month within 25 days of Your statement closing date. For all Feature Categories, We
will begin charging interest on cash advances and balance transfers on the transaction date.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a Credit Card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees

.
.

Cash Advance
Foreign Transaction

For VISA, $25.00
For VISA, 1.00% of each foreign currency transaction in U.S. dollars.
For VISA, 0.80% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees

.

Late Payment

For VISA, up to $30.00
Except for VISA, $15.00 after 9 days

How We Will Calculate Your Balance: For all Feature Categories (except VISA), We use a method called "daily balance."
For VISA, We use a method called "average daily balance (including new purchases)." See Your Account Agreement for
details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
Copyright Oak Tree Business Systems, Inc., 2005-2013. All Rights Reserved.

Page 1 of 5

OTBS 016 JOHN (7/13)

In this Agreement, the reference to "We", "Us", "Our" and "Credit Union" mean COLORADO CREDIT UNION. The words "You" and "Your" mean each person accepting
this Agreement. The words "Card" and "Credit Card" mean any VISA Classic or VISA Secured Credit Card issued to You by Us and any duplicates or renewals.
"Convenience Checks" mean the special Account access devices that We may provide for Your use from time to time.
You, as the Borrower, under a Credit Line Account ("Account"), understand that the following Federal Disclosure Statement and the terms and conditions found herein
constitute Our Agreement with You. You may request advances on Your Account through a variety of means which could include (but may not be limited to) telephonic
requests, advance request forms, vouchers, checks, charge slips, Convenience Checks, Check Cards, ATM Cards, Credit Cards, wire transfers, direct transfers and/or
wire transfers to specific payees identified by You, direct transfers to Your Share/Share Draft or other Credit Union account and the like. Regardless of the means by
which any advance is made, You promise to pay Us all amounts charged to Your Account by You or by any user who has access to Your Account, with actual, apparent
or implied authority for use of Your Account, including Finance Charges and other fees or charges described herein.
FEATURE CATEGORIES. Your Account has Feature Categories which may include Ready Credit Line of Credit (including Overdraft Protection), Personal Property
Secured (a label to reference certain Feature Categories secured by personal property described below and/or on the separate page titled "Credit Line Account
Advance Request And Security Agreement" which We have included with and made a part of this Agreement), Share Secured, Certificate Secured, VISA Classic and
VISA Secured.

Account
Feature Categories

Variable Rate
Index
Margin

Daily
Periodic Rate

Ready Credit Line of Credit
Certificate Secured

3.00
+ CD Rate
____________

Monthly
Periodic Rate

Annual
Percentage Rate

.041069
- .057535
__________________%

14.99
- 21.00
__________%

.0822%
+ dividend rate
__________________%

3.00
+ div rate
__________%

3.00
+ CD Rate
____________

Share Secured
VISA Classic

.912500
- 1.75
___________%

10.95
- 21.00
__________%

VISA Secured

.912500
- 1.75
___________%

__________%
10.95
- 21.00

Automobile

__________________%
.005452 - .049288

1.99
- 17.99
__________%

Signature Loan

.032850 - .057535
__________________%

__________%
11.99
- 21.00

ADVANCES. Whenever You request a transaction, We may require You to prove
Your identity. Advances made on Your Account will be processed according to the
instructions You give Us (such as by wire transfer, direct transfer to Your Credit
Union account or by other such means) and You authorize Us to do this, or We
may draw a draft or check made payable to You and mail it to You. When the
amount advanced appears on a subsequent statement, that will be conclusive
evidence of Your advance request unless You notify Us that You disagree with any
such item appearing on Your periodic statement according to the provision of this
Agreement titled "Your Billing Rights: Keep this Document for Future Use". You
understand that whether or not any specific secured advance request is approved
may be determined by how much equity You have or will have in the shares,
certificates and/or Collateral offered as security.
SECURITY. As permitted by law, to secure all transactions under this Agreement in
either joint or individual Accounts, We have the right to impress and enforce a
statutory lien against Your shares on deposit with Us (other than those deposits
established under a governmental approved tax deferral plan such as an IRA or
Keogh account), and any dividends due or to become due to You from Us to the
extent that You owe on any unpaid balance on Your Account and We may enforce
Our right to do so without further notice to You. Additionally, You agree that We
may set-off any mutual indebtedness.
Whether additional Collateral will be required depends on the type of advance You
request. If You request an advance under a Feature Category which describes
personal property, that property, including the proceeds of the sale of such
property, must also be given as Collateral. For example, a Feature Category called
"New Car Advances" means the Collateral will be a new car. The fact that We are
acquiring a security interest in certain property and/or certificate(s) will be disclosed
in the "Credit Line Account Advance Request and Security Agreement" form
related to any initial advance. You will be provided a copy of that form at the time
You receive the initial advance for any secured Feature Category.
Except for Our security interest, any Collateral pledged as security for Your
Account is owned free and clear from any liens, adverse claims, security interests
or encumbrances. Without Our express written consent, no other liens, security
interests or encumbrances will be allowed to attach to the Collateral. You agree to
inform Us immediately if the Collateral is to be moved from the address We have
on file for You or such other address at which You have informed the Credit Union
the Collateral is now located. The Collateral will not be sold or otherwise
transferred and at all times the Collateral will be kept in good repair. The Collateral
shall not be used for any unlawful purpose. We shall receive Your full cooperation
in obtaining everything that We require to place and/or maintain Our security
interest and/or lien in the Collateral. We may examine and inspect the Collateral at
any time, wherever located. All taxes or assessments on the Collateral shall be
paid as they come due; if not paid, We may pay them and will be entitled to
reimbursement or alternatively, charge that amount to Your Account, under the
related Feature Category.
You acknowledge that You own any certificates, shares and/or Collateral pledged
as security and that there are no other liens against them other than Ours. You
agree to perform all acts which are necessary to make Our security interest in the
certificates, shares and/or Collateral being pledged enforceable.
Copyright Oak Tree Business Systems, Inc., 2005-2013. All Rights Reserved.

For advances under any Certificate Secured Feature Category, all certificates
which are pledged as Collateral must be renewed until Your outstanding balance is
paid in full. Failure to renew any certificates securing any advance will cause Your
entire outstanding balance to become immediately due and payable.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given
as security under this Agreement or for any other loan You may have with Us will
secure all amounts You owe Us now and in the future.
LIEN ON SHARES. If You have been issued a Credit Card, ATM or Check
Card You grant and consent to a lien on Your shares with Us (except for
IRA and Keogh accounts) and any dividends due or to become due to You
from Us to the extent You owe on any unpaid Credit Card balance,
Ready Credit Line of Credit balance created through the use of Your ATM
or Check Card.
ACCOUNT RESTRICTIONS. In order to receive and maintain a Share Secured,
Certificate Secured or VISA Secured Feature Category, You agree to give Us
a specific pledge of shares which will equal Your Credit Limit. In the event that
You default on Your Share Secured, Certificate Secured or VISA Secured
Feature Category, We may apply these shares toward the repayment of
any amount owed on such Feature Category. You may cancel Your Share
Secured, Certificate Secured or VISA Secured Feature Category at any time by
paying any amounts owed on Your Share Secured, Certificate Secured or VISA
Secured Feature Category Feature Category. To be certain that Your entire
balance and all advances are paid, any shares pledged may not be available to
You for 30 days after You have cancelled and any outstanding balance is paid
in full.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit
for each Feature Category for which You are approved. Unless You are in default,
any Credit Limits established for You will generally be self-replenishing as You
make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We
authorize the advances which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit
available during any time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be mailed only to the primary Borrower
at the address that We have on file for You. We may refuse to follow any
instructions which run counter to this provision.
MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Except for VISA, any partial payment

Page 2 of 5

OTBS 016 JOHN (7/13)

or prepayment will be credited to future scheduled payments, except to the extent
that such prepayment cannot advance the date of Your next scheduled payment by
more than one calendar month, and any excess amounts so prepaid will not delay
Your next scheduled payment. For VISA, any partial payment or prepayment will
not delay Your next scheduled payment. All payments to Us must be in lawful
money of the United States. We may apply each payment to whichever Feature
Category We wish. For all Feature Categories (except VISA), payments will be
applied first to any Late Charges owing, then to the Finance Charge due, then to
the outstanding principal balance. Except as required by law, the order in which We
may apply VISA payments is at Our discretion.
Any unpaid portion of the Finance Charge will be paid by subsequent payments
and will not be added to Your principal balance. You understand that any delay in
the repayment of Your unpaid balance will increase Your periodic Finance Charges
and any acceleration in the repayment of Your unpaid balance will decrease Your
periodic Finance Charges.

subsequently each day thereafter ("Index") plus Our Margin. The Index plus the
Margin equals the Interest Rate. Changes in the Index will cause changes in the
Interest Rate on the day of any such change in the Index. Increases or decreases
in the Interest Rate will cause like increases or decreases in the Finance Charge
and will affect the number of Your regularly scheduled payments. Your Interest
Rate will never be greater than 18.00% nor less than 1.00% and will apply to Your
remaining principal balance.
OVERDRAFT PROTECTION. We may transfer funds in multiples of $50.00 (or in
such increments as We may from time to time determine) to Your share draft
account by an advance on Your Ready Credit Line of Credit Feature Category,
subject to this provision, to clear any overdraft on Your share draft account.
Whether or not such transfers occur will be controlled by this Agreement. In any
event, You hold Us harmless for any and all liability which might otherwise arise if
the transfer does not occur. Overdraft protection automatically ceases if this
Agreement is ever cancelled or terminated or Your Account is in default.

For all Feature Categories (except VISA and Ready Credit Line of Credit),
Minimum Monthly Payments will be disclosed to You at the time of each
advance on a separate page titled "Credit Line Account Advance Request and
Security Agreement".

PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will mail You a statement each month in which there
is a debit or credit balance or when a Finance Charge is imposed. We need not
send You a statement if We feel Your Account is uncollectible or if We have
Ready Credit Line of Credit Minimum Monthly Payments will be established at the started collection proceedings against You because You defaulted. EACH
time of each advance at an amount in accordance with the following table:
STATEMENT IS DEEMED TO BE A CORRECT STATEMENT OF ACCOUNT
UNLESS YOU ESTABLISH A BILLING ERROR PURSUANT TO THE FEDERAL
Unpaid Balance
Monthly Payment
TRUTH-IN-LENDING ACT.
$0.00 - $500.00
$30.00
$500.01 - $1,000.00
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
$60.00
$1,000.01 - $2,000.00
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
$75.00
$2,000.01 - $3,000.00
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience
$100.00
$3,000.01 - $4,000.00
Checks have been reported lost or stolen; (3) Your Account has been cancelled or
$125.00
$4,000.01 - $5,000.00
has expired. If a postdated Convenience Check is paid and, as a result, any other
$150.00
$5,000.01 - $7,500.00
Convenience Check is returned unpaid, We are not responsible for any resulting
$225.00
$7,500.01 - $10,000.00
loss or liability.
$275.00
$10,000.01 - $15,000.00
$365.00
$15,000.01 & Greater
DEFAULT. You will be in default if: (a) You do not make any payment or perform
$475.00
any obligation under this Agreement, or any other agreement that You may have
VISA Classic and VISA Secured Minimum Payments will be an amount equal to with Us; or (b) You should die, become involved in any insolvency, receivership or
2.00% of Your new unpaid VISA Classic or VISA Secured balance at the end of custodial proceeding brought by or against You; or (c) You have made a false or
each billing cycle, subject to the lesser of $15.00 or Your balance, plus any portion misleading statement in Your credit application and/or in Your representations to
of the Minimum Payments shown on prior statement(s) which remains unpaid.
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any
You may, by separate agreement, authorize Us to charge Your payment directly to of Your property or rights, specifically including anyone starting an action or
Your share or share draft account.
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon
LATE CHARGE (EXCEPT FOR VISA). If Your payment is 10 or more days late, will be impaired, time being of the very essence.
You will be charged $15.00.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
FINANCE CHARGES (EXCEPT FOR VISA). A Finance Charge will be assessed Your rights under this Agreement, require the return of all access devices and
on any unpaid principal balance for each Feature Category of Your Account for the declare the entire balance of every Feature Category of Your Account immediately
period such balance is outstanding. Balances change each time advances are due and payable, without prior notice or demand, unless notice is required by law.
made, payments are made or credits given under any Feature Category. The If Your entire Account balance is not then paid immediately upon default, and if
Finance Charge begins to accrue on the date of each advance and there is no permitted by law and after any required notice of Your right to cure default, the
grace period.
Collateral shall be voluntarily surrendered to the Credit Union at a time and place
acceptable to it. If this is not done, to the extent permitted by law and after any
HOW TO DETERMINE THE FINANCE CHARGE (EXCEPT FOR VISA). For all required notice of Your right to cure default, the Credit Union may enter the
Feature Categories (except for VISA), the Finance Charge is determined by premises where the Collateral is located and take possession of it and the Credit
multiplying Your unpaid balance at the close of each day in the billing cycle being Union may assert the defense of a superior right of possession as the holder of a
accounted for by the applicable Daily Periodic Rate. The unpaid balance is the security interest to any offense of alleged wrongful taking and conversion. The
balance each day after payments, credits, and unpaid Finance Charges to that Credit Union may sell or dispose of the Collateral in any manner permitted by law,
balance have been subtracted and any new advances, insurance premiums or and any resulting deficiency on Your Account shall be immediately paid to the
other charges have been added to Your unpaid balance. These daily Finance Credit Union. You further agree that We may, if necessary and at Our option,
Charges are then added together and the sum is the amount of the Finance improve the Collateral from the state that it is in at the time of repossession to a
Charge owed for the Feature Category being accounted for. The total Finance state that is considered reasonable and customary for normal use of the Collateral
Charge You owe on Your Account for each billing cycle is the sum of all the and You agree to reimburse Us for any and all costs incurred in the course of
Finance Charges due for all applicable Feature Categories.
such improvements.
VISA FINANCE CHARGES. In the case of any transactions under Your VISA
Classic and VISA Secured Feature Categories, the balances subject to the periodic
Finance Charge are the average daily transactions balances outstanding during the
month (new and previous). To get the average daily balance, We take the
beginning balance each day, add any new purchases, balance transfers, cash
advances, insurance premiums, debit adjustments or other charges and subtract
any payments, credits and unpaid Finance Charges. This gives Us the daily
balance. Then, We add up all the daily balances for the billing cycle and divide
them by the number of days in the billing cycle. The Finance Charge for a billing
cycle is computed by multiplying the average daily balance subject to a Finance
Charge by the Monthly Periodic Rate.

COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all court
costs, private process server fees, investigation fees or other costs incurred in
collection and reasonable attorneys' fees, not in excess of 15% of the unpaid debt
after default. incurred in the course of collecting any amounts owed under this
Agreement or in the recovery of any Collateral. If the attorney is Our salaried
employee You will not be assessed any attorneys' fees.

ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our
rights under this Agreement. If any provision of this or any related agreement is
You can avoid Finance Charges on purchases by paying the full amount of the determined to be unenforceable or invalid, all other provisions remain in full force
entire balance owed each month within 25 days of Your statement closing date. and effect.
Otherwise, the new balance of purchases, and subsequent purchases from the
date they are posted to Your Account, will be subject to a Finance Charge. Cash NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
advances and balance transfers are always subject to a Finance Charge from the or otherwise have a change of address.
date they are posted to Your Account.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
CERTIFICATE SECURED VARIABLE RATE. Advances are subject to a Variable delivering to You written notice of the changes as prescribed by the Federal
Rate which is based on the dividend rate being paid on the shares pledged on the Truth-In-Lending Act or applicable Colorado law. To the extent permitted by
date that Your Certificate Secured Feature Category is established, and law, the right to change the terms of this Agreement includes, but is not limited to,
Copyright Oak Tree Business Systems, Inc., 2005-2013. All Rights Reserved.

Page 3 of 5

OTBS 016 JOHN (7/13)

the right to change the periodic rate applicable to Your unpaid balance and/or
future advances.
PROPERTY INSURANCE. You agree to insure the property described in the
Security Interest section of any Credit Line Account Advance Request and Security
Agreement against fire and other hazards, with a policy as specified by Us, in the
amount necessary to protect Our security interest in the Collateral with Us named
as loss payee for Our protection and with a maximum deductible of $1,000. Such
insurance shall protect against loss by fire, theft, and collision, and will provide "all
risks" hull insurance in the case of aircraft or boats and accessories thereto, if any.
You may purchase the insurance from any insurer You want, but We have the right
not to accept the insurer for reasonable cause. If You do not get or keep such
insurance, We may (but are under no obligation to do so) obtain it and: (a) add the
costs to the principal balance of Your Account; (b) increase Your periodic payment;
and/or (c) demand that You pay the cost in a single lump sum. In any case, You
agree to pay for the cost of any such insurance and if You fail to do so, We may
declare Your Account in default. You agree to deliver satisfactory evidence of the
insurance policy to Us within any time period specified in any notice from Us or on
Our behalf. You understand that any property insurance obtained by Us on the
Collateral will only protect Our interest in this Agreement and the Collateral and
that the cost of such insurance may be remarkably greater than that which You
obtain on Your own, all of which means that property insurance obtained by Us on
Your behalf may cost You more and provide less coverage on the Collateral. We
have the authority to obtain, adjust, settle or cancel insurance and may endorse
any party's name on any draft.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to Your outstanding balance. If You elect
to do so, You will be given the necessary disclosures and documents separately.

INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act", and/or "Credit Line Account Advance
Request and Security Agreement" which is delivered together with this Agreement
or at a later date become an integrated part of this Agreement and Disclosure.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or other
financial information related to You, at Our request. You also agree that We may,
from time to time, as We deem necessary, make inquiries pertaining to Your
employment, credit standing and financial responsibility in accordance with
applicable laws and regulations. You further agree that We may give information
about the status and payment history of Your Account to consumer credit reporting
agencies, a prospective employer or insurer, or a state or federal licensing agency
having any apparent legitimate business need for such information.

REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others to
accept the Cards or Convenience Checks, or electronic terminals to honor the
Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. dollars) will be: (a) a rate selected by VISA from the range of
rates available in wholesale currency markets for the applicable central processing
date, which rate may vary from the rate VISA itself receives; or (b) For transactions
that are initiated in a foreign currency, You will be charged 1.00% of the final
settlement amount. For transactions occurring in foreign countries and initiated in
U.S. Dollars, You will be charged 0.80% of the final settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.
LATE CHARGE. If Your payment is 1 or more days late, You will be charged the
lesser of: (a) the amount of the minimum payment due; or (b) $30.
OTHER FEES AND CHARGES. You will be charged a $25.00 FINANCE CHARGE
for each cash advance You take.

LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit
Cards or Convenience Checks, You will immediately call Us at (800) 682-6075 or
write to Us at the address shown in this Agreement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your share
account after 6 months.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give us the following information:

.
.
.

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe
what You believe is wrong and why You believe it is a mistake.

You must contact Us:

.
.

Within 60 days after the error appeared on Your statement.
At least 3 business days before an automated payment is scheduled, if
You want to stop payment on the amount You think is wrong.

TERMINATION. Either You or We may cancel Your Account or any particular
Feature Category of Your Account, at any time, whether or not You are in default.
You will, in any case, remain liable to pay any unpaid balances according to the
terms of Your Account.

You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay
the amount in question.

GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Colorado except to the extent that such laws are inconsistent with
controlling federal law.

When We receive Your letter, We must do two things:

SPECIFIC TERMS APPLICABLE TO YOUR VISA
CLASSIC AND VISA SECURED CREDIT CARDS
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but
not limited to, advances made for the purpose of gambling and/or wagering where
such practices are in violation of applicable state and/or federal law.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at
any time without notice. You agree to surrender Your Card and to discontinue its
use immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue a
Personal Identification Number (PIN) for use with participating Automated Teller
Machines (ATMs). This PIN is confidential and should not be disclosed to anyone.
You may use Your PIN to access Your Account and all sums advanced will be
added to Your balance. In the event a use of Your PIN constitutes an Electronic
Fund Transfer, the terms and conditions of Your Electronic Fund Transfer
Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or other
slips You may sign or receive when using Your Card contain terms, this Agreement
is the contract which solely applies to all transactions involving the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (800) 828-2274 or by
writing to Us at the address shown in this Agreement. In any case, Your liability will
not exceed $50.
Copyright Oak Tree Business Systems, Inc., 2005-2013. All Rights Reserved.

What Will Happen After We Receive Your Letter

1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.
While We investigate whether or not there has been an error:

.
.
.
.

We cannot try to collect the amount in question, or report You as
delinquent on that amount.
The charge in question may remain on Your statement, and We may
continue to charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible
for the remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:

.
.

If We made a mistake: You will not have to pay the amount in question or
any interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount in
question, along with applicable interest and fees. We will send You a statement
of the amount You owe and the date payment is due. We may then report You
as delinquent if You do not pay the amount We think You owe.

If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do
so, We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom we
reported You as delinquent, and We must let those organizations know when the
matter has been settled between Us. If We do not follow all of the rules above,

Page 4 of 5

OTBS 016 JOHN (7/13)

You do not have to pay the first $50 of the amount You question even if Your bill
is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with
Your Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:
1)

The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more
than $50. (Note: Neither of these are necessary if Your purchase was based

Copyright Oak Tree Business Systems, Inc., 2005-2013. All Rights Reserved.

on an advertisement We mailed to You, or if We own the company that sold
You the goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 5 of 5

OTBS 016 JOHN (7/13)

